                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS


                                     CLOSEOUT MEMORANDUM:

11   Case Number: A03060035
                                                                        11        Page 1of 1



         We received a telephone call from a scientist1 who brought to our attention a recent
         issue of a research journal2 containing a retraction of a paper3 that cited NSF
         support.4 The retraction caught his attention because it noted the results of an
         experiment were performed by a single investigator and were not able to be
         replicated by the senior scientists; and the researcher who conducted those
         experiments6 could not be contacted to sign the retraction. These factors could lead
         one to consider the data in the published paper may have been fabricated.
         We contacted the senior author and asked about the circumstances of the retraction.
         He explained his research group was in the process of attempting to replicate the
         published results, but had been unable to do so thus far. He said they have no
         evidence of fabrication (outside of the discrepancies, there are no apparent problems
         with the original data), but, nonetheless, were concerned other scientists might rely
         on those results and waste time and honey. As possible reasons why their
         experiments didn't replicate the other researcher's, he suggested the samples may
         have been mislabeled or too old, but did not rule out fabrication.
         We asked the senior author notify us if, in the course of his research, he acquires
         evidence indicating the data were fabricated. Until then, we have no evidence of
         fabrication; accordingly, this case is closed.




            1 (footnote redacted).
            2 (footnote redacted).
            3 (footnote redacted).
            4 (footnote redacted).
            5 (footnote redacted).
            6 (footnote redacted).
